HHS/OIG-Audit--"Assist Audit of the Health Care Financing Administration's Fiscal Year 1998 Financial Statements at First Care Service Options, Inc., (A-04-99-03012)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Assist Audit of the Health Care Financing Administration's Fiscal Year 1998 Financial Statements at First Coast
Service Options, Inc.," (A-04-99-03012)
June 9, 1999
Complete
Text of Report is available in PDF format (4.88 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
First Coast Service Options, Inc. (FCSO) serves as both the Medicare fiscal intermediary and carrier for the State of
Florida. Our review was made to determine whether Medicare claims paid by FCSO were reimbursed in accordance with Medicare
laws and regulations. With the assistance of FCSO and peer review organization medical review personnel, we identified
overpayments totaling $10,105 for these claims during the first quarter of Fiscal Year 1998--our audit period. The overpayments
occurred for various reasons, including insufficient documentation, incorrect coding of procedures, and lack of medical
necessity. We recommended a financial adjustment. The FCSO officials agreed and have initiated recovery action.